<!
V

>

No.
IN THE
SUPREME COURT OF THE UNITED STATES

Christopher Everson Petitioner
VS.
Theresa Lantz, et. al. Respondent

PROOF OF SERVICE
I, Christopher Everson, do swear or declare that on this date,
, 2021, as required
by Supreme Court Rule 29 I have served the enclosed: PETITION FOR WRIT OF CERTIORARI on
each party to the above proceeding or that party's counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by delivery to a
third party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Theresa Lantz, Her Attorney: Carolyn Ennis, Assistant Attorney General, Office of the Attorney
General 165 Capitol Avenue, Hartford Connecticut 06106, Phone 860-808-5340
John Armstrong, His Attorney: Carolyn Ennis, Assistant Attorney General, Office of the Attorney
General 165 Capitol Avenue Hartford Connecticut 06106 Phone 860-808-5340
Connecticut Commissioner of Corrections, His Attorney: Carolyn Ennis, Assistant Attorney
General, Office of the Attorney General 165 Capitol Avenue Hartford Connecticut 06106 Phone
860-808-5340
Nelvin Levester, His Attorney: Carolyn Ennis, Assistant Attorney General, Office of the Attorney
General 165 Capitol Avenue Hartford Connecticut 06106 Phone 860-808-5340
Robert Carbone, His Attorney: Carolyn Ennis, Assistant Attorney General, Office of the Attorney
General 165 Capitol Avenue Hartford Connecticut 06106 Phone 860-808-5340
I declare under penalty of perjury that the foregoing is true and correct.
Executed
1 5/

, 2021

